<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                    
                         [H.A.S.C. No. 115-116]

                         ARMY FUTURES COMMAND:

                             WILL IT HELP?

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 13, 2018

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-472                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                                   
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                 Tom Hawley, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

McCarthy, Ryan D., Under Secretary of the Army...................     3
Murray, GEN John M., USA, Commanding General, United States Army 
  Futures Command................................................     5

                                APPENDIX

Prepared Statements:

    McCarthy, Ryan D., joint with GEN John M. Murray.............    32
    Wilson, Hon. Joe.............................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Brown....................................................    46
    Mr. Carbajal.................................................    45
    Ms. McSally..................................................    46
    Ms. Stefanik.................................................    45
                  
                  
                  ARMY FUTURES COMMAND: WILL IT HELP?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                      Washington, DC, Thursday, September 13, 2018.
    The subcommittee met, pursuant to call, at 1:30 p.m., in 
room 2020, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Good afternoon. The subcommittee will come to 
order. I would like to welcome each of you to the hearing of 
the Readiness Subcommittee of the House Armed Services 
Committee on the new Army Futures Command.
    Today the subcommittee will hear from the Under Secretary 
of the Army and the Commander of the Army Futures Command about 
the reasons the Army decided to establish a new major command, 
the most significant restructuring of the institutional Army 
since the 1970s.
    Because this new entity will work within the existing Army 
structure, the subcommittee will be interested in learning how 
the Army Futures Command will work with other important players 
in the Army modernization process. Relationships with the 
Assistant Secretary of the Army for Acquisition, Logistics and 
Technology [ASA(ALT)], as well as those with the Army's 
Materiel Command [AMC] and the Training and Doctrine Command 
[TRADOC], will be critical. Indeed, it is difficult to envision 
how all these changes will synchronize in a smooth fashion.
    We recognize that the Army's intent is to improve and speed 
the modernization process. As you are aware, acquisition 
improvement across the Department of Defense has been a 
committee focus for a long time, though discernible change is 
elusive.
    We also are eager to understand how the Army intends to 
overcome the obstacles to improvement that have frustrated so 
many who have tried to overcome them. While I am hopeful, I am 
not yet persuaded that a new command is the right answer to the 
Army's acquisition challenges.
    We welcome the witnesses' perspective on these issues and 
any recommendations you may have.
    Before I introduce the witnesses, I turn to the 
extraordinarily distinguished ranking member of the Readiness 
Subcommittee, the gentlelady and wonderful individual from the 
beautiful territory of Guam, Madeleine Bordallo, for her 
opening comments.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 31.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman. Your 
introductions get better by the day.
    And thank you to the witnesses for being here to discuss 
the establishment of the Army's newest four-star command, Army 
Futures Command. And I want to congratulate the general on his 
appointment.
    Up to this point much of the focus and attention has been 
placed on the selection of the Army Futures Command 
headquarters, and I understand that the Department has selected 
Austin, Texas. And I know some Members may still have questions 
about the process and the metrics used to make the final 
stationing decision.
    Aside from location, as the Army proceeds with standing up 
Futures Command, the committee has questions on the roles and 
the mission of this new command. The Army has faced multiple 
challenges with its efforts to modernize and rebuild the 
service's full-spectrum readiness.
    Furthermore, the Army's past attempts to change internal 
policies, command relationships, and organizational structures 
in an effort to improve the acquisition process has met mixed 
results.
    So I look forward to hearing how you believe it will be 
different this time. And I hope you will also address three 
areas of concern. First is the risk of creating another massive 
bureaucracy. Second is duplicating the role of the Army Staff. 
And third is the long-term risk to civilian control of the 
acquisition system.
    With regard to the bureaucracy concern, while I know the 
intention is to keep this new four-star command small, history 
shows that over time all such commands grow rapidly. No matter 
who is in charge, large administrative commands like this often 
develop internal processes that consume vast amounts of time 
and resources.
    So in creating yet another large organization, I think it 
is fair to ask if the Army is, in fact, just creating more 
overhead that will further slow an already cumbersome process.
    Secondly, many of the functions that the Army Futures 
Command is expected to address are already being performed 
somewhere else on the Army Staff, and I am concerned that the 
Army is standing up a four-star organization with up to three 
lieutenant generals as deputies without a clearly defined 
command relationship and an organizational plan.
    I understand that as the Army separates staff roles and 
responsibilities there may be a period of redundancy and 
inefficiency. However, I look forward to hearing your plan to 
mitigate these inefficiencies.
    And finally, I hope you will address how civilian oversight 
of the acquisition system will be maintained with this new 
command. In my view, the law is clear that the acquisition 
chain of command runs from program managers through the 
civilian Assistant Secretary of the Army for Acquisition, 
Logistics and Technology, who derives his authority from the 
Secretary of the Army.
    While the proposed structure appears to be consistent with 
the letter of the law, I am concerned that it comes close to 
violating the spirit of the law in that over time the civilian 
acquisition leadership will be eclipsed by the size and the 
weight of this new organization run entirely by general 
officers.
    So I would like to hear today about how such a loss of 
civilian authority and control will be avoided.
    As the Army has noted, the establishment of the Futures 
Command is a significant undertaking in a reorganization plan, 
and like with any major organizational change I am sure there 
will be challenges as the command is stood up and begins to 
influence decisions affecting modernization and readiness.
    I support the Army's efforts to improve the acquisition 
process; however, it is our responsibility today to ask hard 
questions, especially while we are early in the development.
    I look forward to your comments and working with you toward 
a successful conclusion.
    And I want to thank you, Mr. Chairman, for calling this 
hearing, and I yield back.
    Mr. Wilson. And thank you very much, Congresswoman 
Bordallo. We always appreciate your tireless service.
    I am pleased to recognize our witnesses today. I would like 
to thank them for taking the time to be with us. They are the 
Honorable Ryan McCarthy, the Under Secretary of the Army, and 
General John M. Murray, Commanding General, U.S. Army Futures 
Command.
    Before we begin, I would like to remind the witnesses that 
your full written statements have been submitted for the 
record, and we ask you summarize your comments to 5 minutes or 
less.
    Secretary McCarthy, we would like to begin with you, and we 
look forward to your opening statement.

   STATEMENT OF RYAN D. McCARTHY, UNDER SECRETARY OF THE ARMY

    Secretary McCarthy. Thank you, Mr. Chairman.
    Good afternoon, Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of this subcommittee and staff. I 
appreciate this hearing's acknowledgment of the importance and 
gravity of the Army's establishment of Futures Command and the 
impact it will have on our force.
    First, I want to personally thank each of you for the 2-
year defense budget topline increase of $22.5 billion this past 
year. This generous amount in support has primed the pump to 
reenergize our Army's modernization efforts. Your confidence in 
our ability to maximize the utility of every dollar is not lost 
on us.
    Today, I, alongside General Mike Murray, look forward to 
sharing why the Army is reorganizing, how the Army is 
institutionalizing a government structure to transcend 
personalities, and how the Army is establishing relationships 
to ensure modernization of our formations.
    Dr. Esper and General Milley testified in April on the 
changing nature of warfare, increasing adversarial 
capabilities, and how the Army is meeting the National Defense 
Strategy requirements. This reason underpins our reorganization 
and the establishment of Army Futures Command.
    We looked across the entire Army enterprise to put all 
modernization tasks that generate a warfighting capability 
under one roof. These tasks include warfighting concepts, 
requirements, experimentation, and fielding of materiel and 
nonmateriel solutions.
    By design, this is not your normal Army command. It can't 
be. To thrive in the Information Age we must operate in a fast-
paced, dynamic, and evolving ecosystem. We will become 
comfortable being uncomfortable by partnering with 
nontraditional actors, operating with a lean organizational 
design, and sharing a connection to academia and industry we 
have never achieved before.
    This change enables us to address problem solving 
differently and gain accurate customer feedback by 
incorporating the best of Army warfighters with the best of 
American academia and industry.
    We are confident that Army Futures Command will address our 
past modernization shortcomings. This command will now drive 
accountability, provide agility and solution generation, and 
produce results, ultimately bridging the future and the fielded 
force.
    This command will be painstakingly focused on the future 
fight. We are ensuring the lethality and survivability of our 
soldiers and the continued preeminence of our Army as the 
world's premier land fighting force. With the help of industry, 
academia, and Congress, we can produce what our soldiers need.
    Two months ago we selected Austin, Texas, as the 
headquarters of Futures Command. Austin provides the necessary 
mix of STEM [science, technology, engineering, and math], R&D 
[research and development] investment, a mature incubator 
ecosystem, a top-tier university system to partner with, and a 
disruptive and welcoming culture that propels a vertical 
integration of our concepts through solutions, all within a few 
city blocks. We couldn't be happier with the reception and 
support from the City of Austin, the University of Texas, and 
the State of Texas.
    Recently, I was asked by the Governor of Texas what success 
looked like and how I would know we made the right decision in 
10 years. I told him the answer is simple: We will have next-
generation capabilities in the hands of our soldiers in the 
next 3 to 5 years, as that is the only metric that matters.
    Congressional support has provided the blueprint and 
resourcing for this endeavor, and we must produce the results 
that your trust requires. Anything less is not acceptable to 
the current Army leadership, to this committee, or the citizens 
of this country. We appreciate your unrelenting support and 
acknowledge the work remaining.
    Thank you for your time and the opportunity to testify 
today. I look forward to your questions.
    [The joint prepared statement of Secretary McCarthy and 
General Murray can be found in the Appendix on page 32.]
    Mr. Wilson. Thank you very much, Secretary McCarthy.
    We now proceed to General Murray with your opening 
statement.

   STATEMENT OF GEN JOHN M. MURRAY, USA, COMMANDING GENERAL, 
               UNITED STATES ARMY FUTURES COMMAND

    General Murray. Thank you, sir.
    Good afternoon, Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of the subcommittee. Thank you for 
the opportunity to testify before you today.
    The world has changed significantly since our current 
ground combat systems were designed and built in the 1970s and 
1980s. The rapid pace of technological change, coupled with the 
speed of innovation we see in the world today, demand that the 
Army makes changes in the way we develop and deliver concepts 
and capability for our soldiers.
    I fully understand the weight of responsibility that now 
rests on my shoulders and accept that responsibility without 
hesitation. The stakes could simply not be higher.
    I am personally and professionally invested to ensure that 
future soldiers have the concepts and capabilities they need 
when and where they need them to fight and win on a future 
highly lethal battlefield. We simply must change our linear 
sequential modernization process to create a flexible, agile, 
and innovative organization that adapts to a rapidly changing 
world and evolving threat.
    This command will provide more than oversight on cost, 
schedule, and performance. It must also provide value--value to 
the American people, value to Congress, value to the joint 
force, value to our Army, and most importantly, value to the 
young men and women that will be defending our ideals and 
freedoms on a future battlefield.
    I have four initial priorities to ensure the Army Futures 
Command succeeds.
    First is to recruit, hire, and emplace talent throughout 
the organization. We are being very deliberate about aligning 
the right mix of talent, both military and civilian, against 
the complex problems the Army must solve.
    Second, build relationships and establish our footprint 
within Austin's entrepreneurs, incubators, university system, 
and private industry. This is what led our leaders to the 
selection of Austin, and we must harness what the city has to 
offer. As our command gets established, we will start seeking 
to put small footprints into other incubator hubs across the 
U.S. to gain access to as much of America's talent as we 
possibly can.
    Third, embrace the culture we need within our organization 
to transform from the Industrial Age to the speed of the 
Information Age. When you visit us in Austin you will not see 
us in uniforms. What you will see is us operating out of a 
high-rise, integrating on a daily basis with entrepreneurs, 
scientists, and businesses.
    We will employ the entrepreneurial spirit of accepting the 
risk of failure early and cheaply in order to create the best 
solutions for our soldiers.
    Fourth, integrate Army organizations and missions. I 
understand that change is hard, it will be disruptive, and 
building the team from existing organizations dispersed across 
the United States will take leadership and patience.
    This is not about success of any one organization or 
individual. It is about delivering concepts and capabilities 
that ensure our soldiers and formations have overmatch on a 
future battlefield. We must stay focused on output.
    Last October we stood up eight cross-functional teams, or 
CFTs, aligned with the Army's six modernization priorities. In 
less than 12 months the CFTs have validated our approach and 
produced solutions that will be rapidly delivered to our 
soldiers, in most cases cutting the traditional requirements 
and acquisition process in half or better.
    Given sufficient resources and time, Army Futures Command 
and the CFTs will continue to produce similar results. It is 
those results that will ensure the Army retains overmatch, is 
ready for multidomain operations, and most importantly, will 
ensure our soldiers are ready to deploy, fight, and win on a 
future battlefield.
    Let me close by saying we cannot succeed without 
congressional support. It is absolutely essential. I look 
forward to all of you visiting us in Austin and providing you 
updates on our progress on a routine basis.
    Thank you for your time today, and I look forward to your 
questions.
    Mr. Wilson. Thank you very much, General Murray.
    For the benefit of each member of the subcommittee, we will 
adhere to the 5-minute rule for questions to the witnesses, and 
I appreciate the 5-minute rule will be strictly administered by 
professional staff member Tom Hawley. And we will begin with me 
under the 5-minute rule.
    Secretary McCarthy, as you are aware, title 10 vests 
responsibility for the acquisition and budgeting to Senate-
confirmed civilian officials in the Department of the Army. 
Given these restrictions, will the Army Futures Command have 
the authorities necessary to carry out its mission? On the 
other hand, are you concerned that the Secretary of the Army 
and Assistant Secretaries will lose visibility of programs they 
remain accountable for?
    Secretary McCarthy. No, sir. Sorry, no, we are not 
concerned, sir.
    Mr. Wilson. Okay. We appreciate the succinct response. That 
was clearly understood. And, in fact, the next question, I 
think you may have answered that, too, before I get to it, and 
that is, are there any further legislative initiatives that are 
needed by anyone here to back up your efforts?
    Secretary McCarthy. Not at this juncture, sir, no.
    Mr. Wilson. Thank you very much.
    And, General Murray, can you describe how you will ensure 
your command will work with the Army Materiel Command and the 
Training and Doctrine Command? How will you ensure that the 
work of your command has influence in the annual program and 
budget cycle? How will you interact with that process? And your 
record of service is encouraging that somehow all of these 
challenges are going to be met.
    General Murray. Yes, sir.
    So simply what I said in my opening statement is none of 
us, whether it is TRADOC, AMC, or Army Futures Command, or 
FORSCOM [U.S. Army Forces Command], can be successful if we 
stay focused on output for our soldiers, delivering value to 
young men and women that fight our battles. And so that is how 
you stay unified.
    And it is not just those organizations. It is also, as you 
mentioned, the Assistant Secretary of the Army for Acquisition, 
Logistics and Technology.
    So relationships will be exceptionally important in going 
forward, and I think as long as all of us remain focused on 
what we deliver to our soldiers, that is how you get to 
success.
    Mr. Wilson. And a concern that we have all had is to be 
able to change to the rapidly ever-changing technology. Do you 
feel like this can be achieved?
    General Murray. I do, sir, because we are going to rely not 
only on our traditional lab system, which we will continue to 
rely upon, but we are going to open our eyes to technologies 
that we didn't even know existed. So we are going to get out 
and we are going to find disruptive technologies that can 
either be incorporated directly through the acquisition 
executive or through our lab system.
    Mr. Wilson. And Secretary McCarthy, you have already really 
addressed this, too. You are ahead of the curve. And that is 
the unique placement of all places Austin, Texas. And can you 
go through that again as to what were the determining factors 
of locating at Austin?
    Secretary McCarthy. Sir, we started the process about 8 or 
9 months ago where we got an outside firm to assist us in 
developing a quantifiable formula that had characteristics like 
STEM talent, R&D investment, density of entrepreneurs, skill 
sets like systems engineering, software development, and looked 
at the densities associated where these skills lied in the 
country.
    Also had accessibility, how fast could we assume the 
location, our position in that ecosystem, as well as the cost 
of living.
    So we started with 150 cities, narrowed it down all the way 
to 5. And then I personally went onto the due diligence visits. 
And then ultimately it came out that Austin scored the highest 
of the 5 cities that were our finalists, sir.
    Mr. Wilson. Thank you very much.
    And, General Murray, I think the American people would be 
interested in learning of the location of your command, which 
is quite unique.
    General Murray. Yes, sir. It is on the 19th floor of the 
University of Texas Systems Building. Currently it is concrete 
floor, concrete pillars, and overhead water pipes. It will be 
built out over the next 6 months right smack in the middle of 
downtown Austin with a small cell operating in a place called 
the Capital Factory, which is an accelerator hub.
    Mr. Wilson. We all think of military facilities as 
extraordinary acreage. And so to find out the centralized 
nature of what you are doing, it shows vision. And I want to 
commend you and thank both of you.
    And we now proceed to Congresswoman Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And I hope 
you don't extract this from my 5 minutes, but there is a native 
of Guam in the audience today, and I am very proud of her. She 
is the military assistant to the Under Secretary of the Army, 
Mr. McCarthy, and she is seated right over there, Major 
Unpingco.
    Would you raise your hand? You are a little bit short. 
Stand up. Stand up.
    Mr. Wilson. Major, thank you for being here.
    And that shall not be counted against----
    Secretary McCarthy. Can I correct the record, sir? She is a 
lieutenant colonel promotable.
    Ms. Bordallo. Oh, all right, all right. And her father was 
the Speaker of the Guam legislature for many years, and I 
served as a senator under his leadership.
    So welcome. Welcome to you.
    All right, my question. Now we are starting the time, Mr. 
Chairman? Thank you.
    Mr. Wilson. Now you can begin.
    Ms. Bordallo. Thank you, Mr. Chairman.
    This question is for either witness. Given the rapid 
timeline for standing up this huge and complex organization 
that is expected to be fully operational by the summer of 
2019--is that correct?--how are you going to measure success 
and progress? And more importantly, what is your plan if you 
are not seeing any value added?
    General Murray. So, ma'am, like I said in my opening 
statement, the ultimate value is a value to the soldier. And so 
that is how we will ultimately measure output.
    The organization will build between now and about March, is 
when I pick up my last organization, and fully operational in--
July 31 is the target date.
    I am currently working specific metrics in terms of the 
amount of time it takes us to deliver this capability, but like 
I said earlier, I think ultimately you will be able to measure 
the value of this organization. The ultimate metric is soldiers 
on the battlefield being able to utilize the equipment and the 
concepts we will produce.
    Ms. Bordallo. Secretary McCarthy, do you?
    Secretary McCarthy. If I may add, ma'am, the work really 
began about 3 years ago, and it really started with a 
conversation between Senator McCain and General Milley right 
before his confirmation hearing. And his point of emphasis was 
that the Army needed to reorganize itself so that it could 
bring stakeholders together and move faster in this process, 
reduce the span time, get better-informed decisions.
    So the work really began then with then-Lieutenant General 
Murray and Major General Jimmy Richardson, who was just 
recently promoted to three stars, as his deputy. So a lot of 
the work had been done over about a 2-year horizon.
    And then timing worked out with this current leadership 
team's buy-in and really found another gear last fall when we 
made the announcement to pursue this. And so a lot of rigor and 
energy applied over a 3-year horizon.
    Ms. Bordallo. Thank you.
    This next question is also for either witness. In creating 
Army Futures Command the Army is taking major elements out of 
two existing four-star commands, Army Training and Doctrine 
Command and the Army Sustainment Command.
    So since these organizations are getting smaller, have the 
Army leaders considered making these commands three-star 
commands in order to reduce overall administrative overhead?
    Secretary McCarthy. Ma'am, what we believe as the Army's 
senior leadership team is that it has provided much greater 
clarity and focus for all of our major commands.
    So Training and Doctrine focuses--it hones in on assessing 
individuals and preparing them to send to the operational 
force. FORSCOM, laser focused on readiness. And with AMC, by 
taking out that S&T [science and technology], that research and 
development organization, they look solely at the sustaining of 
the force. The power of the RDECOM [U.S. Army Research, 
Development and Engineering Command] is really part of the 
nucleus that is behind the Futures Command.
    So we see greater focus within the major commands, and we 
know it will improve performance.
    Ms. Bordallo. And I have one final question, Mr. Chairman.
    Under Secretary McCarthy, I understand that the three-star 
deputy to the Assistant Secretary of the Army for Acquisition, 
Logistics and Technology will be answering in some capacity to 
both the Assistant Secretary of the Army for Acquisition, 
Logistics and Technology and the Commander of the Army Futures 
Command.
    So in my experience answering to two bosses has never been 
very successful. I expect that at some point there will be 
diverging instructions or conflicts. Who will be the honest 
broker to ensure that civilian oversight for acquisition 
retains its lawful integrity without overriding the commander's 
authorities?
    Secretary McCarthy. Ma'am, the purpose behind General 
Ostrowski's role as the MILDEP [military deputy] for ASA(ALT) 
being tied into the command is so that he can perform the 
oversight and management of the program managers that are 
matrixed into the command. They receive all of their 
instructions from Dr. Jette.
    But this brings the acquisition community closer to 
requirements and our intent of improving planning, programming, 
budgeting, and execution. So this is an organizational format 
to bring us closer together so we can perform better. But his 
instructions are from Dr. Jette.
    Ms. Bordallo. Do you feel the same way, General?
    General Murray. Absolutely, ma'am. So I see General 
Ostrowski as my primary acquisition adviser.
    Ms. Bordallo. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Scott [presiding]. Thank you, Ms. Bordallo.
    Mr. Secretary, you answered Chairman Wilson's question 
pretty succinctly with a ``no'' a minute ago. And I want to go 
back to one of the things that I think a lot of us have 
concerns about, is whether or not there will be challenges in 
harmonizing the authorities within retaining Army Materiel 
Command, the Assistant Secretary of the Army for Acquisition, 
Logistics and Technology, and the standup of Army Futures 
Command. Do you see any difficulties in the harmonization 
between the three?
    Secretary McCarthy. Yes, sir. There will be cultural 
challenges. We have decades of ingrained behavior. So like all 
things, this will require a great deal of senior leadership 
focus, as well as in communication internally and externally to 
stakeholders.
    Mr. Scott. Just briefly, how do you see a day in Army 
Futures Command? I mean, from start to finish. Can you walk us 
through how, General, you expect a day or a week or a month?
    General Murray. I don't know that I can walk you through a 
time period, but I can talk you through what my priorities will 
be from the headquarters location. And it is really just the 
synchronization of efforts across the entire modernization 
enterprise and ensuring that that enterprise is focused on what 
is most important to the Army.
    A lot of that is going to have to be worked through Dr. 
Jette as the Army acquisition executive. I think I have 
oversight of the entire acquisition process. So really from the 
beginning of a requirement through the divestiture of a piece 
of equipment, I don't have authorities across that spectrum.
    So maintaining one person with oversight that can point out 
opportunities and arising problems so they can be solved 
quickly by whoever is responsible for that piece of it I think 
is one of my primary roles. And then synchronization, 
integration, and I would almost use the word orchestration of 
the entire force modernization effort.
    Mr. Scott. So some things would seem pretty simple, like 
the selection and purchase of a new pistol. Other things are 
more complex, you know, what type of system replaces something 
like an Apache.
    Will you deal with the simple issues as well as the complex 
issues? Will something like a pistol or a rifle purchase come 
through your command or will that be left?
    General Murray. I think it depends on whether it is a 
future capability or a near-term capability, sir. So I doubt 
that whatever replaces the new pistol would come through my 
command, but I am focused on Next Generation Squad Automatic 
Rifle and Next Generation Squad Weapons.
    So if it is the next evolution or the revolutionary 
breakthrough that the CFTs are focused on. But I expect that I 
will remain focused primarily on the Army's priorities.
    Mr. Scott. I think most of my questions have been answered. 
So I yield the remainder of my time and recognize Mr. Courtney 
for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you, both witnesses, for being here today.
    I get the logic and the intent of this initiative. The Army 
has struggled over the years in terms of new acquisition 
programs, and a lot of times it plays out in front of this 
committee--the Future Combat Systems program, which I think was 
terminated by Secretary Gates; the Ground Combat Vehicle, which 
I think was terminated by Secretary Hagel.
    Again, the demise of those programs was something that the 
Armed Services Committee, and particularly subcommittees like 
Readiness, sort of had front row seats while that was all sort 
of going.
    So again, I think that what you are trying to do, which is 
to reset the whole approach here in terms of acquisition, 
certainly makes a lot of sense.
    I guess what I would be curious to hear is that if this 
subcommittee 2 years from now held a hearing on sort of the 
before and after standing up, what would be the matrix--or 
metrics rather--in terms of what are we going to see happen in 
2 years that would really be, again, a measuring stick so that 
we can see that real change is occurring here in a positive? 
And, again, I would open that to either one of you or both.
    General Murray. Sir, you probably read this in a couple 
articles. I can't do miracles, so I am not going to deliver you 
a new tank in 2 years.
    But what I do think you will see is some of the 
capabilities the cross-functional teams are working on will be 
in production and being delivered in the hands of soldiers 
within the next 2 years, not all of them but a couple key 
pieces of it.
    And I do think that you will see a very deliberate effort 
to align, synchronize, and orchestrate across the entire 
modernization effort, and I think you will see much shorter 
timelines to deliver capability to soldiers.
    Secretary McCarthy. Yes, sir. Very similar vein to what 
General Murray described is we will be able to show you the 
span time reduction in requirements development. And then 
moving towards experimentation and prototyping of the 
performance of--for procurement of weapons systems, very 
similar to the way manufacturing institutions measure return on 
invested capital, the speed at which and the performance at 
which you can put together a concept.
    Mr. Courtney. So I am not proposing that you should just do 
stuff for the sake of doing stuff, but, I mean, you do sort of 
visualize that 2 years from now you will be able to present, 
again, real concrete sort of timelines and particularly 
priorities that you have identified for the command?
    Secretary McCarthy. Yes, sir.
    General Murray. Yes, sir.
    Mr. Courtney. All right. Well, who knows we will be around 
2 years from now, but I am sure, again, this subcommittee will 
be certainly very anxious to sort of watch if we have sort of 
figured out a solution to what has again been an unfortunate 
time for the Army over the last few years.
    With that, I yield back.
    Mr. Scott. Mr. Russell, you are recognized for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And it is great to have the Under Secretary here today and 
General Murray.
    And if I may, to my colleagues on the committee, you 
couldn't have a finer person in charge of this command. I have 
known General Murray since we were both captains. I served with 
him at Fort Irwin, Fort Benning, Fort Hood. We had overlap in 
operational combat deployments to Iraq and also in the initial 
entry forces into Kosovo. We were even on the Army's 50th 
anniversary dozen soldiers that were picked to do that 
commemoration team, and we served together in Schweinfurt and 
Fort Hood.
    I know this general that sits before you, and he is a 
warrior. He is not a logistician that can't identify the muzzle 
end of a rifle or something of that nature, not that we don't 
love our logisticians, we do. But I am speaking as an 
infantryman, so forgive me there.
    We often say nothing is too good for the troops, and 
nothing is pretty much what we have given them since the 1980s. 
And all of the things that we were able to deliver to our 
forces in the 1980s and early 1990s were a result of 
technologies that were developed in the 1970s.
    And if I might opine, I don't share the pessimism that some 
may share on our panel today. I actually have optimism for it. 
Because if you look at where our acquisition process has been, 
we have a long line of almost hall of fame type failures to 
show for what has not worked in the last 30 years: Future 
Combat System; Crusader; Comanche; Land Warrior; melting 
plastic rifles at Fort Benning that we almost adopted and thank 
God we didn't.
    One bright spot was FBCB2 [Force XXI Battle Command Brigade 
and Below] and Force XXI, which really only came into its own 
when that was turned over to field commands and they made it 
work and then we used it in time of war. And the same could be 
said for the soldiers support things like communications UAV 
[unmanned aerial vehicles], night and thermal fusion. But that 
was largely driven by the special operations forces community 
that circumvented these traditional nonworking acquisition 
processes.
    So ground troops closest to the ground. And my own opinion 
on this is the warriors know what they need, and this is an 
approach to try to get at it. And I applaud both the Secretary 
of the Army and the Under Secretary, General Milley, others 
that have taken this bold move. When we have seen the best 
developments in this age of information it is coming out of 
places like DIUx [Defense Innovation Unit Experimental], 
SOFWERX, other things that circumvent an archaic divided system 
that doesn't work.
    So we have to try something new. Otherwise we will continue 
to fight in 1970s technologies well into 2050, and we can't 
afford to do that, but right now that is what our soldiers 
have. So I will get off my soapbox a little bit on that. But I 
am actually quite optimistic, but my blood type is B positive, 
so it is in my DNA.
    So I would like to ask, General Murray, you laid out the 
four priorities: recruit the best talent; build the 
relationship with incubators and educators; embrace the culture 
from the Industrial Age to the Informational Age, I think that 
is a really key one; and then the integrating the Army 
organization and missions.
    A lot of the concern from this panel seems to be on that 
last one, on the integration. But describe your colleagues' 
reaction to it in the other four-star commands. And by the way, 
I want to congratulate you again on the promotion to your 
fourth star and your command. But describe that relationship 
and the reaction to it from the field.
    General Murray. Thank you, sir.
    Start with the reaction first. So I have full support from 
the other four-star ACOM [Army Command] commanders.
    I was on the phone with General Perna from AMC last night, 
and as you would imagine, with a 2-year budgeting cycle the 
money is going to be a little flaky for the first couple years. 
And that is specifically what we talked about. And he pledged 
to me he would support my priorities even though he is 
administering the funds.
    I sat with General Abrams from FORSCOM a couple days ago. 
What I asked from him was basically what you described, said I 
need a partner so I can get soldier input and prototypes into 
the hands of soldiers so we can deliver what is important to 
soldiers first and focus on that.
    And then General Townsend at TRADOC. Obviously, I am 
picking up a part of his organization. I have a free and open 
invitation to start work that I really pick up next summer from 
General Townsend. So the relationship has been exceptionally 
positive.
    Mr. Russell. Thank you for that.
    And, Mr. Secretary, is there anything that--I mean, the OSD 
[Office of the Secretary of Defense] side of the five-sided 
building can often be almost contrary to the operational side. 
So how are you maneuvering these political realities with the 
need to build the future as you are trying to weave your own 
battles through there?
    Secretary McCarthy. Sir, as an alumnus of OSD, I am fully 
aware of what you mentioned.
    A lot of that is just the engagement, the investment of 
time of going up and down the E Ring and meeting with my 
teammates.
    A lot of the authorities that have been delivered by this 
committee have really reset the balance so that the services do 
manage a lot more major defense acquisition programs than we 
have in the last couple decades. So like all things, it takes 
engagement and just a lot of effort on a daily basis, sir.
    Mr. Russell. Thank you.
    And thank you, Mr. Chairman. I yield back my time. Thank 
you.
    Mr. Wilson [presiding]. Thank you, Congressman Russell.
    We now proceed to Congressman Salud Carbajal of California.
    Mr. Carbajal. Thank you, Mr. Chairman.
    And thank you, Under Secretary McCarthy and General Murray, 
for being here today.
    The purpose of the Army's Futures Command is to streamline 
modernization efforts in order to get new technology and 
equipment to the soldiers quicker. The creation of this new 
command is a result of significant failures involving major 
combat systems and the growing concern that the U.S. is falling 
behind its adversaries, such as Russia and China, when it comes 
to our capabilities.
    It is also a solution that could potentially address the 
notorious complaint that it just takes too long to do business 
with the military. I think General Milley explains it best, 
quote: What we have is essentially a linear process, going from 
an idea, writing up a big requirements document, and then 
vetting it through multiple steps. It takes years, and it is 
not going to be effective going into the future.
    The whole idea behind this new command is to develop a 
system where we can ask questions and change requirements at 
the front end of the process, so that if we are going to fail 
we fail early and fail cheap, as Secretary Esper would put it.
    Secretary McCarthy and General Murray, I would like to get 
a better understanding of how the current linear process will 
be changed? What improvements and changes should industry 
expect to see, and when, as they begin working with the Futures 
Command?
    Secretary McCarthy. Sir, if you look at the formation of 
the cross-functional teams, and this is really the strongest 
element of the command, is you have a single belly button, if 
you will, point of entry to a portfolio, Long Range Precision 
Fires, for example. So as a vendor they go into one place and 
they can talk to all of the stakeholders associated with the 
process.
    This team of teams concept brings a requirements leader 
with a program manager, sustainer, tester, all of those key 
stakeholders together, formalizes the relationships. Why it had 
taken 20 years to field weapon systems is the span time of 
moving from desk to desk, which historically these various 
stakeholders were in major commands, headquarters, Department 
of the Army, spread across a million-person organization.
    Now we are bringing them all together and reducing that 
time it takes to move information, but also the clarity. If you 
know this teammate you can work the tradeoffs in real time 
between cost, schedule, and performance.
    Our initial feedback from industry is they are very 
encouraged by this. They can go to one place and they can work 
through the various issues associated with an RFP [request for 
proposal], better understand a requirement that we intend to 
put on an RFP.
    So it has created better relationships, but really more so 
than anything it has improved the timelines it takes to move 
information and formalize these teams to work better together.
    General Murray. Yes, sir. And I would just add, so you 
mentioned requirements documents. So a part of this is 
experimenting, prototyping, putting it in the hands of 
soldiers, getting soldier feedback, involving a cross-
functional team--scientists, testers, program managers, 
operators--to make sure that we understand what is possible 
before we write a requirements document.
    That is what has led us to failure in the past sometimes, 
is we would write a requirement that was not feasible where it 
would take years and years to test; or it was just 
unaffordable. So costers are also a part of this.
    And then I would just echo what the Secretary said in terms 
of the CFTs, cross-functional teams are showing us. So, for 
instance, in Air and Missile Defense we needed a mobile we call 
a SHORAD, short range air defense, to keep up with our maneuver 
brigades. The initial estimate was we could field one in 2025. 
We are now down to four battalions by fiscal year 2020. The 
requirements process for that was done in 90 days as opposed to 
the 3 to 5 years it was taking 2 to 3 years ago.
    So I think there are some examples out there that we can 
tie into to really how this is going to work.
    Mr. Carbajal. Just to follow up. Coming from local 
government we call that concept one-stop shop.
    But let me ask you, what is the timing? I hear what you are 
telling us, but as we know the DOD [Department of Defense] is 
notorious for saying and characterizing this great concept. But 
if somebody is watching this hearing and is going to be on the 
receiving end, the other end of procurement, when are you going 
to start implementing these systems?
    Secretary McCarthy. Sir, we have already begun with the 
cross-functional teams that we piloted last fall that are 
managing these six portfolio capabilities.
    General Murray. If I can go over just a little bit, Mr. 
Chairman.
    Mr. Wilson. Briefly, please.
    General Murray. Yes, sir.
    I think the key thing is with the relationships we talked 
about earlier. These are led by former brigade commanders, so 
these are coming out of armor and infantry brigades. There is a 
PM [project manager] on their team, and the relationship from 
that PM back through the acquisition channels has proven to be 
very, very solid.
    Mr. Carbajal. Thank you.
    I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Mr. Carbajal.
    We now proceed to Congressman Mike Gallagher of Wisconsin.
    Mr. Gallagher. Thank you, Mr. Chairman.
    And, General Murray, we would gladly accept any stories you 
have about our colleague here, having served with him for so 
long. Particularly afterwards, if you want to meet, I will 
gladly receive those.
    Thank you for being here today for what is a really 
interesting discussion.
    Just quickly, are all of the cross-functional teams, they 
will be housed physically together in Austin on a day-to-day 
basis?
    Secretary McCarthy. No, sir. They are spread out all over 
the country. Our Long Range Precision Fires are located at Fort 
Sill, Oklahoma. The Ground Combat Vehicle is at Automotive 
Research Development Command in Warren, Michigan. The Future 
Vertical Lift is in Huntsville, Alabama. Our Network is in 
Aberdeen Proving Ground. Missile Defense is at Fort Sill. And 
the Soldier Lethality is at Fort Benning, Georgia.
    We have two complementary efforts, Positioning, Navigation, 
and Timing and Synthetic Training Environment. The Synthetic 
Training Environment is in Orlando, Florida, with the PEO STRI 
[Program Executive Officer for Simulation, Training and 
Instrumentation], and the PNT, or Positioning, Navigation, and 
Timing, is also at Huntsville.
    Mr. Gallagher. And then how many personnel will be 
physically present in Austin? And then what will be sort of the 
effort to sort of bring people together on a routine basis if 
the cross-functional teams are sort of the heart of this 
effort, right?
    General Murray. Yes, sir. They were. And I have to pass on 
your offer. He has got more stories on me than I do on him.
    Mr. Gallagher. It is mutually assured destruction, I would 
imagine, yes.
    General Murray. So the real function, it will end up being 
a fairly large organization when you look at what is now RDECOM 
at Aberdeen Proving Ground, part of ARCIC [Army Capabilities 
Integration Center], which is at Fort Eustis, Virginia, plus 
the cross-functional teams.
    The headquarters in Austin is capped at 500. My goal is to 
keep it below 500 and even with contractors not grow much above 
that.
    And you really unify, I think, and I think that is the key 
premise we are trying to get at, is these various stovepipes in 
the past had no central oversight, had no central person kind 
of establishing priorities, creating visions, driving 
discipline and accountability in the system, and that is the 
role the headquarters in Austin will play.
    Mr. Gallagher. And I am sorry to be obtuse about this, but 
so who then is the belly button that the cross-functional teams 
loop into within just the team that is in Austin?
    General Murray. They link directly to my one and only 
Deputy Commander, Jim Richardson, and ultimately to me.
    Mr. Gallagher. Got it. And, obviously, TRADOC is probably 
losing the most responsibility in this reorganization, 
particularly when it comes to materiel and equipment planning. 
And if you look at the history of military innovation, 
successful militaries are not just those that acquire new 
technologies first, they are the ones that incorporate those 
new technologies into their doctrine, which in some ways is 
just as difficult, right?
    So could you walk me through your process a bit to 
understand how ultimately you decided that it would be best to 
split these TRADOC functions across commands?
    General Murray. So I think what you are referring to, sir, 
and I am sure you are familiar with the term, we call it 
DOTMLPF [doctrine, organization, training, materiel, leadership 
and education, personnel, and facilities]. So the integration 
of doctrine, training, leader development, materiel. There is a 
defined handoff between Army Futures Command and TRADOC, who 
remains responsible for that DOTMLPF integration.
    So what I will focus on is the future operational 
environment. What would a battlefield look like in 2035? I am 
just picking that year. Is it in a major city? Where could it 
possibly be? What focus do we want? What peer competitor do we 
want to focus on to develop concepts, organizational 
structures, to identify gaps that can either be modified 
through doctrine, organization, TTPs [tactics, techniques, and 
procedures], in some cases materiel.
    Everything other than materiel gets handed off to TRADOC in 
about--just outside--let's just call it just outside the FYDP 
[Future Years Defense Program], to do that integration, along 
with the concepts and requirements for the materiel solutions.
    Now, the materiel solutions themselves ultimately get 
handed off to the acquisition community and ASA(ALT) to deliver 
the materiel. What I am really delivering is concepts, 
organizational structures, and materiel solutions to be 
integrated by TRADOC.
    Mr. Gallagher. Yeah. And then just to end, as my time is 
running out, where I began. The reason I am sort of asking sort 
of simplistic questions about physical presence is it seems 
like we are placing a huge bet on the necessity of being in 
physical proximity to an innovative culture, right? I mean, 
that is the whole reason for relocating to Austin and entailing 
some costs therein.
    I guess I just would have some concern that given the 
importance of the cross-functional teams, if we are still 
operating a scenario in which those are spread all across the 
United States and only sort of on a loose or semi-routine basis 
coming back to the heart of the effort in Austin, are we really 
achieving that sort of synergy that comes from physical 
presence?
    Because I quite agree, I think there is some value to sort 
of being near ideas and discussions that don't often happen 
within the Pentagon or at Fort Eustis or wherever.
    And so I don't know, Mr. McCarthy, if you just want to 
briefly address that concern.
    Secretary McCarthy. It could be potentially a concern, sir, 
but what we see with the value of the command group being in an 
ecosystem like that of Austin is that we can tap into a lot of 
commercial technologies that have not really been afforded to 
the Department of Defense in recent years and forge our 
relationships with academia and business and improve our 
ability to do business with them.
    The incorporation of the CFTs is to get them as close as we 
can to all of the elements of DOTMLPF, as well as the program 
management, and it is dependent upon the life cycle as well.
    Mr. Gallagher. Thank you. My time has expired.
    Mr. Wilson. Thank you, Congressman Gallagher.
    We now proceed to Congressman Anthony Brown of Maryland.
    Mr. Brown. Thank you, Mr. Chairman. And I want to thank the 
Secretary and the General for being here today.
    And, Mr. Secretary, looking forward to our visit to 
Aberdeen Proving Ground next week.
    My question has to do with funding. So Maryland is the home 
of two significant research, development, test, and evaluation 
activities; Aberdeen Proving Ground, you have the networking 
cross-functional team, and then the Army Research Lab at 
Adelphi.
    The cross-functional teams, as I understand it, are 
supervised by the Army Futures Command. There is some other 
reporting that happens to other at least directorates or 
commands, but you are supervising the cross-functional teams.
    It is my understanding that the cross-functional teams 
within that RDT&E budget get their funding from the Advanced 
Technology Development account. The Army Research Lab, which is 
basic and applied research, gets their funding from those 
accounts.
    So my concern is, how are we going the fund the CFTs, and 
will that funding come at the expense of funding for basic and 
applied research?
    General Murray. So the first answer is, sir, that, yes, the 
CFTs report directly to me, and only for the last 3 weeks. 
Prior to that a lot of the success I credit to Mr. McCarthy and 
the Vice Chief of Staff, General McConville. They had direct 
access to senior leader decision makers, so they are not going 
through layer after layer after layer of bureaucracy to get a 
decision.
    And that contributed a lot and that is what we are trying 
to replicate with a direct report to me. Obviously, the Chief, 
the Secretary, the Under, and the Vice still have access to 
them and will get periodic updates.
    To answer your question on really the basic science moneys 
that the Army has versus the more traditional research and 
development moneys, there will be no impact to the basic 
science moneys. What I am counting on ARL [Army Research Lab] 
and other labs to produce, basic science labs to produce, is 
the future technologies that will be incorporated by the labs 
and CFTs at some point in the future.
    Mr. Brown. Just to clarify, you don't see the funding for 
the CFTs impacting the funding for basic and applied research?
    General Murray. We have been very, very consistent in 
maintaining our funding in basic research and applied research 
for many, many years, and we see the value of maintaining that 
funding, because what that really addresses is the 
breakthroughs and the knowledge we are going to need 20 years 
from now.
    Mr. Brown. Great.
    My next question is a followup to Congresswoman Bordallo 
regarding how do you measure success. You mentioned value to 
the warfighters, you said that you are developing metrics, so 
it seems to me that you are not able to put a finer point on 
that now, and I appreciate that.
    But can you at least characterize what those metrics might 
look like a year from now, 5 years from now? What are some of 
the things that you are looking at when you talk about value to 
the warfighters, what those metrics might look like?
    General Murray. In terms of value to the warfighters, I 
think that is going to be a very hard one to put metrics 
against. I think we are going to get a lot of that back from 
soldier input. So once we deliver it.
    We have a history of delivering a capability after a 3- to 
5-year requirements process, a 10-year development process. We 
have a history of delivering even the programs that were 
successful, something that is almost obsolete by the time it is 
delivered. And you get the most response from soldiers is, 
``This is nice, but I have seen so much better in many other 
places.''
    So I think that direct feedback, not only through the 
process but at the tail end, and really can a soldier apply 
this on a battlefield and does it enhance their chance of 
mission success, I think is, like I said, the ultimate metric. 
That is going to be really hard to put specific metrics on. 
That is probably why I can't pinpoint specific things.
    There are things, and I hate process, although process is 
sometimes necessary. You know, one of the metrics that has been 
established is no more than 12 months to develop a requirements 
document, and that was a process that took anywhere between 3 
to 5 years just a year ago.
    Mr. Brown. My last question. Before I ask it, I will say 
also that I share Mr. Russell's optimism for the Army Futures 
Command.
    My last question. I know, Mr. Secretary, that one of the 
criteria in terms of siting the command was that it be near a 
leading academic institution, leading commercial institutions, 
University of Texas. That is great.
    This committee in the recent NDAAs have increased research 
and development programs that support the work being done at 
historically black colleges and universities. So it is maybe 
half question, half comment.
    I would hope that you would look to the historically black 
colleges, at least in Texas, Texas Southern, which is in 
Houston, Prairie View, to develop partnerships with those 
institutions as well as you are sort of building out your 
ecosystem of innovative and diverse views on how to bring value 
to the warfighter.
    Secretary McCarthy. Yes, sir, we will.
    Mr. Brown. Thank you. I yield back, Mr. Chairman.
    Mr. Wilson. And thank you, Congressman Brown.
    We now proceed to Congressman General Trent Kelly of 
Mississippi.
    Mr. Kelly. Thank you, Mr. Chairman.
    And, General Murray and Under Secretary McCarthy, we really 
appreciate you-all being here, and I appreciate the time you 
spent with me in my office prior to this.
    One of my greatest concerns that you are addressing, and I 
am a huge fan of doing this, is we have got an acquisition 
system that is set up for 40 or 50 years ago, and we expect it 
to work today. And today technology moves in minutes and weeks 
and months at the slowest, and we have got an acquisition 
system that is built for decades or quarter centuries. And so I 
appreciate this undertaking.
    I think we have to be careful, and people are always 
resistant to change. I think we have the right people in the 
right places to do this. We rely on you to be honest brokers 
and to do this in the right way.
    There is going to be a lot of gnashing of the teeth and, 
``We have never done this and it will never work.'' And you 
guys have gone through this before. So I think we have the 
right leadership team in place both at your level and above 
your level and then your peers so that we can do this.
    One of the things I kind of want to talk a little bit about 
is from the time I have been in the military, almost 33 years 
ago, we have always had--our opponents have had better long-
range artillery. They outdistance us or they had more guns, and 
there was a lot of different things. And I know that we are 
working on some of those solutions.
    And so, General Murray or Mr. McCarthy, whichever one would 
like to answer this, tell me kind of what you are doing to 
address that. Not, obviously, classified stuff. But tell me who 
you are working with and who are the key players in addressing 
this issue that has been an at least 33-year problem in our 
military.
    General Murray. Yes, sir. We have broken it down into the 
three bins that you will be very familiar with. So from a 
tactical fires perspective, we are going through basically a 
two-step upgrade to our current Paladin. We are going to the 
M109A7, which is a new chassis. And then the next step is 
coming very quickly; we call it the ERCA. So it is the Extended 
Range Cannon Artillery. So it is a different caliber. It is a 
.58 caliber cannon. And we have already shot a ram round out of 
that, out of that tube, and more than doubled the range of our 
current artillery. And the goal is to get that out even 
further.
    The next one is our operational fires. It is a new missile; 
we call it the Precision Strike Missile. It has a range of 
approximately--will have a range of approximately 499 
kilometers, and it is only limited by the INF [Intermediate-
Range Nuclear Forces] Treaty. Our current missile that it is 
replacing has a range of 350, so we are extending that by about 
150 kilometers.
    And then for our operational--I am sorry, our strategic 
fires, we are looking very hard and starting down the path of 
hypersonics, and then also looking at what we call the 
Strategic Long-Range Cannon, which conceivably could have a 
range of up to 1,000 nautical miles.
    So we are looking across all the three echelons of fires. 
And then we are also, a more near-term thing we are doing is we 
are adding back in both cannon and rocket artillery into our 
formations. Very graciously, we have been allowed to grow over 
the last 2 or 3 years, and a large piece of that growth is 
focused on artillery.
    Mr. Kelly. And one thing, I know both of you guys have led 
soldiers at all levels, and we as leaders sometimes think we 
have the best ideas. But you guys both know that a lot of times 
you don't tell them--you tell them the capabilities or you tell 
them what you want and you let them figure it out. Sometimes 
they surprise you with an answer that is much greater than 
anything you ever anticipated. I ask that you not lose that.
    And I ask that you also not lose the ability when you have 
something developed but a different civilian organization maybe 
comes up--with all the tech guys you are going to have around 
you--with a better idea, let's not be immune from just saying, 
we are breaking this other one, this is better, it is ready to 
field, let's do this. So I hope you will do that.
    My final concern a little bit is we have some places like 
ERDC [U.S. Army Engineer Research and Development Center], 
which do some of our greatest research in the world. And so 
there is a little bit of fear that some of that money is going 
to go to Futures Command, and they are going to be shorting on 
their budget some of the greatest research and doctors and 
people that we have.
    What can you tell me or why should these people not be 
worried about maybe losing their budget and it going to Futures 
Command and them losing their budget? What would you do to make 
sure they understand that is not going to happen?
    General Murray. Yes, sir. I would say that the effort in 
all the labs across the Army is to get them focused on Army 
priorities. It is not to cut workforce, it is not to take 
money. It is to streamline and focus on what is most important 
to the Army. And that is what we have basically failed to do, 
in my opinion, since the mid-eighties.
    And you are right, the labs do incredible work and we have 
got some incredibly bright people. I think the value of Futures 
Command is we don't have all the really incredibly bright 
people, to go back to a point you made earlier. So I think we 
can learn a lot. It is not designed to cut away work from the 
labs or to take people from the labs; it is to learn from other 
really bright engineers, scientists, data scientists, et 
cetera.
    Mr. Kelly. And just very briefly, Chairman, it is not just 
having the right idea. Sometimes it is reinforcing and patting 
guys on the back and letting them know they are going to be 
okay. You have to do that part; that is part of leadership and 
change. People don't like change.
    With that, I yield back.
    Mr. Wilson. Thank you, Congressman Kelly.
    We now proceed to Congresswoman Stephanie Murphy of 
Florida.
    Mrs. Murphy. Thank you.
    Secretary McCarthy, General Murray, thank you for being 
here today. And, Secretary McCarthy, it is nice to see you 
again.
    I was really encouraged by the comments in your written 
testimony and what you said here today, that the Army must 
generate a culture that embraces and embodies agility in the 
pace of the private sector, and to do so the Army must tap into 
the spirit of American entrepreneurship by operating in 
innovative hubs and academic institutions in our country.
    And that is why I am just so pleased that the Army selected 
Orlando as the new location for the Synthetic Training 
Environment cross-functional team under Army Futures Command. 
And, as you know, the STE/CFT will merge live, virtual, and 
gaming domains into a single state-of-the-art training 
environment for soldiers. And my district in Central Florida is 
really ideal for this kind of work. Orlando is the center of 
gravity for gaming. It is home to a thriving tech ecosystem and 
has a dynamic and diverse higher education system.
    Just a couple of questions, and I will toss them all out at 
once. Would you describe the benefit that the Army will receive 
by locating this STE/CFT and other CFTs in and around 
innovation hubs in the United States? How do you envision that 
the CFTs will interact with these hubs and academic 
institutions and the overall Army Futures Command headquarter, 
as well as what can we do here in Congress to support the 
success of these entities?
    Secretary McCarthy. I think we can both comment on this, 
ma'am. We are tapping into commercial talent that we have not 
utilized in recent times. So that is the first thing. And being 
closer to the innovators and allowing us to talk through our 
challenges helps us create solutions faster and more 
effectively. So we are trying to get as close as we can. I 
think of the Allen curve of the 1970s, bringing the innovator 
closer to the customer ultimately.
    And you can talk through all of the requirements, to 
General Murray's points earlier, about the development of a 
requirements document. So we are excited about that 
opportunity, in particular with Orlando. And over time, it is a 
cultural change for us. We are putting the requirements leader 
right in there with the PEO STRI organization. But it has 
improved our definition of requirements and in the movement of 
information, like we have illustrated before.
    General Murray. Yes, ma'am. I think you heard over and over 
again about how we believe the real power of different ideas, 
sitting around the table and talking, really from different 
perspectives, how you come to a better solution. Entrepreneurs, 
private industry, big business, small business, we just see 
them as another valuable team member that we can absolutely 
learn from and come up with better solutions because of it.
    Mrs. Murphy. Great. Thank you. And then what do you think 
the new command's role will be in training and sustainment for 
future Army systems?
    General Murray. So sustainment is part of every 
requirements document, and AMC, Army Materiel Command, will 
maintain a leading role in helping us develop, as part of the 
requirements document, the sustainability we are looking for, 
the operational readiness that we are looking for.
    The training piece of it will belong to TRADOC, where it 
traditionally belongs. So as we hand over materiel solutions or 
new concepts, they will develop the training strategy to go 
with it, and then FORSCOM will actually execute the training.
    Mrs. Murphy. Thank you. I will yield back the rest of my 
time. Thank you.
    Mr. Wilson. Thank you very much, Congresswoman Murphy.
    We now proceed to Congresswoman Vicky Hartzler of Missouri.
    Mrs. Hartzler. Thank you very much, Mr. Chairman.
    Thank you, gentlemen. This is very exciting and has so much 
potential. And I just am trying to hone in a little bit in how 
this all ties together. And I appreciated your explanation, 
General Murray, earlier of how you are going to have--your job 
is to take the concepts and then come up with the materiel 
solutions, and then pass that off to materiel acquisitions, and 
then pass the training materiels off to TRADOC.
    Can you just expound on that a little bit and what your 
role is and then how it ties in with the other divisions in the 
Army and their responsibilities?
    General Murray. Yes, ma'am. Thank you. So, I mean, you 
basically read it back to me, so--you know, Army Materiel 
Command 6 months ago did all the logistics and sustainment for 
a 1.1 million-man Army. They do all the foreign military sales 
work, and they were doing research and development and S&T 6 
months ago.
    Training and Doctrine Command does accessions. They do 
initial entry training. They do advanced individual training. 
They do officer education. They do noncommissioned officer 
education. And they produce the Army's doctrine.
    And FORSCOM is probably the easiest to explain. They have 
all the operational units, and they focus solely on the 
readiness of those operational--readiness, those operational 
units. And that is part of the streamlining, and it was 
identified before as creating another bureaucracy.
    I actually see it as streamlining the bureaucracy, because 
if you look at--and nothing against my fellow four-stars, but 
there is bureaucracy in AMC and there is bureaucracy in TRADOC 
and there is bureaucracy in HQDA, the Headquarters Department 
of the Army, and there is bureaucracy within the acquisition 
community. All four of those communities all had a ``no'' vote. 
Very few people had a ``yes'' vote.
    So what I see this as is really taking those four 
communities, when you look at the acquisition of materiel, the 
development requirements and the acquisition of materiel, by 
establishing oversight, that authority to install that, is you 
have actually streamlined four bureaucracies into one. And 
there is somebody in place that can say yes.
    Mrs. Hartzler. So how will what you do differ from what 
DARPA [Defense Advanced Research Projects Agency] is doing?
    General Murray. So parts of what we do will be similar to 
DARPA. DARPA will be one of our key partners. DARPA is one of 
our key partners right now. We fund a lot of the work that 
DARPA does through the Army, and we will continue to do that.
    So the goal will be not to duplicate the efforts that DARPA 
is doing, but to have the synergy with DARPA to achieve the 
same result I have talked about earlier, delivering capability 
as quickly as we can.
    Mrs. Hartzler. So we have Dr. Jette now, the Assistant 
Secretary of the Army of Acquisition, Logistics, Technology. 
What is his role versus your role?
    General Murray. His role has not changed. Since the day he 
was sworn in to today, his role has not changed. So he remains 
solely responsible to the Secretary of the Army for 
Acquisition, Logistics and Technology. He is the Army's chief 
scientist. PMs. He is responsible for the development of the 
Acquisition Corps, both the uniformed and the civilian part of 
it; and he is ultimately responsible for the delivery of a 
materiel solution once a decision is made to go down that 
route, that it can't be solved by anything else, can't be 
solved by a doctrine change or an organizational change.
    I will have to work very closely with Dr. Jette. And like I 
said earlier, I have oversight. We are building systems right 
now to give me oversight of the entire system. So if it is a 
problem prior to a milestone decision authority or a materiel 
development decision, usually associated with milestone A, I 
have the authorities to fix that, because it is a requirements 
issue or it is a prototyping issue or it is an experimentation 
issue.
    If it is past the decision to build a piece of equipment to 
solve that problem, the responsibility really lies with Dr. 
Jette, so I have the obligation to work with him to solve those 
problems.
    Mrs. Hartzler. So it will start with you.
    You mentioned hypersonics. So are you taking over the 
development of hypersonics and the research on that?
    General Murray. Up until the point that we decide to build 
it, yes, ma'am.
    Mrs. Hartzler. So who is working on that now and you are 
going to take that responsibility?
    General Murray. Well, currently the limited amount of work 
we are doing, which is expanding, is being done at a place 
called SMDC, the Space and Missile Defense Command.
    Mrs. Hartzler. So you will be taking that over under your 
command and your development, your concept stage. What other 
projects will you be assuming that are currently somewhere 
else?
    General Murray. So all the CFTs' work. There are about 21 
individual programs that are within the CFTs. So Future 
Vertical Lift, so future helicopters; the network, some of the 
work that is going up at Aberdeen Proving Ground; the Assured 
Position, Navigation, and Timing; the air and missile defense 
portfolio; the soldier lethality portfolio, so the next-
generation rifle, next-generation automatic rifle, next-
generation night vision devices; the synthetic training 
environment that was mentioned; directed energy; the 
hypersonics we mentioned. And we are in the process of standing 
up an artificial intelligence task force, so machine learning 
and artificial intelligence.
    Mrs. Hartzler. A big portfolio. Thank you very much.
    I yield back.
    Mr. Wilson. Thank you very much, Congresswoman Hartzler.
    We now proceed to Congresswoman Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, gentlemen.
    As you are looking at what the Futures Command is taking 
on, how are you assessing the personnel needs, what skills, 
educational background, and experience that you will need to 
bring these teams together, and where do you plan to build them 
from?
    General Murray. I am relying pretty heavily on the 
gentleman sitting to my right. So this will be very 
nontraditional. And I like to tell people I walked into, I 
think, my first meeting here in Crystal City, because of the 
status of the headquarters down there, and I was very 
comfortable because there was a lieutenant colonel wearing a 
Combat Infantryman's Badge and a Ranger Tab. And then I quickly 
found out that he is an operational research specialist with a 
Ph.D. in data analytics.
    So that is the type of skill set we are looking for. We are 
very close to hiring a chief technology officer that Mr. 
McCarthy can talk about, but he is a leader in the field. 
Experts in the area of artificial intelligence, machine 
learning.
    So this will be very nontraditional to what I am used to 
walking into. And if I have been successful in my career, it is 
because I think I have been fairly successful finding the 
people with the right talents to surround myself with that can 
help me make the right decisions over time.
    Secretary McCarthy. If I could expound on that, ma'am. So 
if you look at the three major pillars that make up the 
command: Futures and Concepts, Combat Development, and Combat 
Systems. Futures and Concepts is kind of where you look at the 
skill sets of the Skunk Works and Net Assessment which we have 
in the Department.
    We need to be thinking about our operational design in 
future years as well as leaders that understand future 
technologies. So being in the proximity of an ecosystem filled 
with entrepreneurs, we look to either hire these folks 
organically or as a consultant basis to help us understand what 
technologies are out there that could affect our operating 
concept to make us more lethal. So those will be research 
scientists, people of that nature.
    The Combat Development, to the point that General Murray 
made before about a chief technology officer, we are recruiting 
a dean of a very prestigious engineering school to be his chief 
technology officer, so have someone who is world class in 
systems engineering to help us look at our architectural 
designs. Because like the programs I mentioned before, Future 
Combat Systems and others, a lot of that was the systems 
architecture associated with the weapon system.
    So if it wasn't clean on the operating concept and we 
didn't have a clean architectural design, that is why we had 
catastrophic failures. A lot of this talent had been divested 
from the Department over the last couple of decades, so we are 
out recruiting people with those types of skill sets.
    And to General Murray's, one of his primary tasks of 
building this technical bench as well as world-class 
warfighters like the ones he has got in his senior leadership 
team.
    General Murray. Ma'am, if I could just add, part of this is 
also harnessing the talent we already have. So identifying and 
harnessing talent that exists in a lot of the organizations 
that will fall under me pretty soon.
    Ms. Gabbard. Are you looking at all in the Guard and 
Reserve and folks who may be doing this job already in their 
civilian sector?
    General Murray. I have a good tie-in to the Army National 
Guard, and I have a one-star general officer that is really a 
direct liaison to the entire Department in the National Guard.
    And then in direct support to me is the organization called 
the 75th Innovation Command out of Houston, Texas. It used to 
be the 75th Training Command. And I have met with the two-star 
commander that is in direct support to me, and he has some 
amazing talent that he is harnessing all over the country.
    Secretary McCarthy. A couple of the officers that are going 
to serve on our artificial intelligence task force are coming 
from the Reserves. They are really going to be the nucleus of 
that organization in particular.
    Ms. Gabbard. And then my last question is just about the 
technical oversight for your command in making sure that the 
investments that are being made are actually achieving 
realistic goals and objectives and realistic timelines of 
things that you are setting out as very clearly your 
objectives. Where will that kind of technical oversight come 
from?
    General Murray. Primarily from the chief technical officer 
and the resources I align with him. So before you establish a 
timeline, it is good to have a good understanding of what is 
reasonable. And to be honest with you, I can't do that by 
myself.
    So it is really the people I hire, the people I surround 
myself with, get multiple opinions from outside agencies, 
independent assessments, before we launch down a path to where 
we are committing resources against something we can't achieve.
    Ms. Gabbard. Thank you.
    Mr. Wilson. And thank you, Congresswoman Gabbard.
    We now proceed to Congressman Subcommittee Chairman Mike 
Rogers of Alabama.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you all for being here and for your service to our 
country.
    While I was disappointed Huntsville was not selected, I 
don't know that much about Austin, but I am sure it is a fine 
innovative community.
    But I am real interested. I am still trying to understand 
mechanically how you plug into that ecosystem that you made 
reference to, Mr. Secretary, and how they interact with this 
new command. Can you tell me more about that?
    I understand the public-private partnership dynamic that we 
employ in the depot systems, for example. How do you interact 
with these innovators that you have located nearby?
    General Murray. So, sir, there is--and Austin is just one 
example of hopefully what will become a lot. You have heard of 
the organization formerly called DIUx, now called DIU, no 
longer experimental. The Air Force has a similar organization 
called AFWERX. I am standing up a thing called the Army 
Application Lab, which is a very similar concept to DIU and 
AFWERX. They will actually be collocated in a place called the 
Capital Factory in Austin. It is completely contrary to 
anything I have experienced in my military career, but it 
basically is an accelerator hub where young innovators bring 
ideas and they match up with venture capitalists. And we will 
be in there scouting and researching technologies, potential 
technologies that we may want to accelerate or bring into one 
of our programs of record. And that is just--I mean, those 
exist all over the country.
    And so, ultimately, as I said in my opening statement, the 
goal would be to reach out, primarily through the 75th 
Innovation Command, to get into these types of things and bring 
us things we would not normally experience if we were sitting 
on a military installation someplace.
    Mr. Rogers. I heard you make reference to the fact you-all 
will be working on directed energy. I am very interested and 
excited about this capability and seeing us be able to employ 
it in more ways, but I have been frustrated that we are doing 
this research and development across several offices rather 
than concentrating in one area.
    So I have talked with Secretary Mattis about it and Mike 
Griffin, and both have indicated they intend to centralize 
that, but it sounds like that we are going the other direction. 
Is what you are going to be doing inconsistent with that 
centralization of effort?
    Secretary McCarthy. Sir, if I may, like hypersonics, the 
Department is looking at a similar type of joint interest 
program, not a joint program office like the F-35 or some of 
these other programs, but joint interest.
    So we work on programmatic timelines that are suitable for 
us to implement these capabilities into our formations, but we 
share the information and we establish nodes where we can work 
better together, really cultivate a supply chain to support 
these efforts, because there are only a handful of companies at 
present that are really expressing interest to work with us on 
this. So I think you will probably see a similar effort like we 
are doing with hypersonics today, sir.
    Mr. Rogers. Thank you-all. I appreciate your service.
    And I yield back, Mr. Chairman.
    Mr. Wilson. And thank you, Congressman Rogers.
    And I want to thank our witnesses for being here today. And 
also, I want to thank, of course, Tom Hawley for his leadership 
on maintaining the 5-minute rule. And, of course, we want to 
appreciate again our ranking member, Madeleine Bordallo, for 
her bipartisan leadership on behalf of national security, a 
proven record, as she is certainly such a promoter of the 
strategic location of Guam and the beautiful beaches of Guam 
for tourism that has been--I don't want Tulsi to hear this, but 
Hawaii copied Guam.
    Ms. Gabbard. Mr. Chairman, I object.
    Mr. Wilson. And, hey, it has also been a great honor for 
the subcommittee today to meet in the Sam Johnson Room of the 
Rayburn House Office Building. Congressman Johnson is a beloved 
Member of Congress, but he is a hero, having survived as a POW 
[prisoner of war] of Vietnam, a person that we all--just we are 
humbled to be in his presence any time.
    And so, with this, we are adjourned.
    [Whereupon, at 2:50 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                           September 13, 2018

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 13, 2018

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 13, 2018

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. General Murray, I commend the U.S. Army for making 
tough decisions regarding the modernization of the Army's future force. 
I also appreciate the hard choices that you have had to make to insure 
adequate funding across your top six modernization priorities. However, 
I am concerned that given the current priorities of the Army and the 
support that Congress has given the Army for long range assault 
helicopters, the Army's shift toward Capability Set 1 will infringe 
upon the success of a quick acquisition of the Capability Set 3 
aircraft, and possibly even jeopardize the program. Can you tell the 
committee that you are still planning to procure the long-range assault 
aircraft (Capability Set 3) on the same or faster schedule than the 
future armed reconnaissance aircraft (Capability Set 1)?
    As the Executive Agent for the JMR-TD and with FVL as a high 
priority for modernization, please assess the joint risk associated 
with fielding a Capability Set 1 aircraft ahead of a Capability Set 3 
aircraft, and any impact to the acquisition schedule for the Capability 
Set 3 aircraft program. Specifically, can you comment on your 
coordination with the Marine Corps and your assessment on the prospects 
of continued cooperation?
    General Murray. There is low risk associated with fielding a 
Capability Set 1 aircraft ahead of a Capability Set 3 aircraft. 
Capability Set 1 and Capability Set 3 are two complimentary programs 
that are not in competition against one another for resources or 
prioritization. The Capability Set 3 schedule remains unchanged and is 
executing in accordance with the October 2016 Material Development 
Decision. Capability Set 1 (Future Attack Reconnaissance Aircraft) is a 
U.S. Army program led by the FVL CFT, whereas the Capability Set 3 
Future Long Range Assault Aircraft is a multiservice program. The U.S. 
Army and U.S. Marine Corps are the two services participating in the 
Capability Set 3 Analysis of Alternatives. Both services are working 
together to field the required vertical lift capability to their 
respective service. The FVL CFT strategy is to begin fielding the FVL 
Family of Systems circa 2028, including both Capability Set 1 and 
Capability Set 3.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CARBAJAL
    Mr. Carbajal. At $3 million per year, the Peacekeeping and 
Stability Operations Institute (PKSOI) plays a critical role in 
capturing lessons learned and developing informed doctrine, training, 
education and operations for complex peacekeeping and stability 
operations. It's also the only approved NATO Partnership Education 
Training Center. It has recently been reported that the Army is 
eliminating the Institute potentially as a ``pay for'' for the Army 
Futures Command. Is PKSOI a ``pay for'' for the Army Futures Command? 
If so, how will the functions of PKSOI be retained? Is the elimination 
of PKSOI supported by the Joint Staff and OSD Policy?
    Secretary McCarthy. No, the Peacekeeping and Stability Operations 
Institute (PKSOI) is not a ``pay for'' for the Army Futures Command. 
Recent Army decisions regarding PKSOI were aimed at consolidating the 
Army's diverse Irregular Warfare (IW) enterprise to bring greater unity 
of effort and more focus consistent with the National Defense Strategy. 
The focal point of this effort is that the U.S. Army Training and 
Doctrine Command (TRADOC) will establish an IW proponent office at the 
Combined Arms Center, Fort Leavenworth, KS. This approach was informed 
by a TRADOC study to determine the most appropriate means to oversee 
the IW enterprise. The functions and structure of PKSOI and 12 other 
related Army organizations were assessed during this study. The 
proposed plan is to realign components of PKSOI currently at Carlisle 
Barracks, PA: a. Assign and move PKSOI's Army Stability Operations 
Force Modernization Proponency to the new IW office at Ft. Leavenworth 
to improve doctrinal synergy. b. Assign PKSOI's current mission at 
Carlisle Barracks for collecting, archiving, and disseminating Joint 
Peacekeeping and Stability Operations (P&SO) lessons learned to the 
Center for Army Lessons Learned at Ft. Leavenworth. c. Retain an office 
and personnel at Carlisle Barracks to continue the Joint doctrinal 
development and assessment functions specific to P&SO, with oversight 
from the Combined Arms Center at Ft. Leavenworth. This will enable the 
continued engagement and interaction with the broader P&SO community 
including the Department of Defense, Department of State, other 
agencies, and international partners. This approach to realigning 
responsibility for Peacekeeping, Stability Operations, and Irregular 
Warfare has only recently been finalized. We are currently in the 
process of informing and gaining Joint Staff and OSD Policy support for 
these efforts.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. Who was the final source selection for this decision 
with the Army? And, did this final decision track with what the 
internal Army process recommend?
    Secretary McCarthy. Secretary Esper made the final selection. Yes, 
the final decision aligned with the recommendation of the AFC Task 
Force (TF). The AFC TF followed a rigorous data-driven approach to 
systematically narrow the list of viable locations, eventually 
resulting in the five very best candidate locations, which were visited 
by both a working team as well as Under Secretary of the Army McCarthy 
and LTG Wesley. Those five were then analyzed further using more data 
to determine which location would provide the best return on investment 
for the Army and the Nation.
    Mr. Brown. What happens after these CFTs have completed their jobs? 
Will you stand up new CFTs?
    Who will decide what that next modernization priority will be? Is 
the Defense Intelligence Agency integrated into the AFC? If not, what 
is informing the requirement development? Is it threat based?
    What metrics are the Army using for ``success'' for the AFC? How 
will we know this is better than the old model?
    The Army has indicated that the Purpose of the AFC is to bring 
together new and emerging technologies. Specifically, how will these 
new and emerging technologies be integrated into the ``big 6 
priorities''? Does the Army plan to act as the lead systems integrator? 
If so, what experience does the Army have in this role, and what 
success stories can the Army share?
    Assistant Secretary McCarthy has stated publicly that 80% of S&T 
will be prioritized against 18 weapons systems. What projects will the 
other 20% fund? Which Army research programs currently funded by the 
80% will the Army cut?
    General Murray. The CFTs will likely deactivate once their missions 
are completed. We will assess the need for new CFTs based on emerging 
requirements. We do not anticipate the Army's modernization priorities 
to change. The Defense Intelligence Agency (DIA) is a critical partner 
in AFC efforts. Further, AFC has and will continue to personally brief 
the DIA Director (currently LTG Ashley) on AFC efforts. Additionally, 
AFC routinely partners with DIA, including the National Ground 
Intelligence Center (NGIC) and other service centers that are federated 
parts of DIA. The AFC approach is threat-based; threats drive AFC's 
description of the Future operational environment and provide the 
baseline for future modernization efforts. AFC is developing metrics to 
gauge progress along five areas of emphasis: Unity of Effort, 
Overmatch, Innovation, Solutions Development, and Engagement. 
Ultimately AFC's success will be measured by improving our ability to 
equip Warfighters with the tools they need, when they need them, to 
fight and win. AFC will continue to identify, assess, update, and 
refine metrics to ensure the Future Force Modernization Enterprise 
effectively delivers Warfighting capabilities. New and emerging 
technologies are being integrated into the Army's 6 modernization 
priorities as these represent the focus of Army modernization. 
Moreover, the CFTs have the responsibility for integrating these 
technologies under the direction of AFC. AFC will be the orchestrator 
of the Future Force Modernization Enterprise working closely with the 
other services, the AAE, and the other ACOMs. The Army has learned from 
past experiences with lead systems integrators and continues to learn 
from initial successes with CFTs. Dr. Jette, Army Acquisition 
Executive, has stated that 80% of Budget activity 6.3 dollars should be 
aligned to the needs of the eight CFTs. The focus of the CFTs are near-
to-midterm, therefore the remaining 20% will resource the evaluation of 
disruptive technologies that do not directly align with the CFTs. S&T 
efforts that are not directly tied to the CFTs will be the first 
efforts to be evaluated based on importance to the Army warfighter. 
These efforts may ultimately be cut or moved to the 20% non-aligned 
funding.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. McSALLY
    Ms. McSally. Under Secretary McCarthy, you have been quoted as 
saying that Army Futures Command (AFC) will have a staff of around 500. 
I also understand that the Army plans to staff Futures Command, at 
least partially, by reallocating people and positions from other Army 
organizations, such as the Army's Intelligence Center of Excellence 
(USAICoE), located at Fort Huachuca. Has the Army identified whether 
any functions will be reallocated from Fort Huachuca/USAICoE as a 
result of the establishment of Futures Command? Has the Army identified 
where the personnel positions, both military and civilian, will come 
from for Futures Command? Does the Army anticipate pulling any 
personnel positions from Fort Huachuca/USAICoE?
    Secretary McCarthy. Portions of the Capability Development 
Integration Directorates (CDIDs) and Battle Labs resident in Training 
and Doctrine Command (TRADOC) Centers of Excellence transfer from 
TRADOC to Army Futures Command. This includes the CDID and Battle Lab 
at Fort Huachuca/United States Army Intelligence Center of Excellence 
(USAICoE). Currently this is a Command transfer only, with the function 
remaining at Fort Huachuca. Regarding identifying personnel positions 
for Army Futures Command and Fort Huachuca/USAICoE, the Army is in the 
process of defining which personnel positions will transfer from 
existing Army Staffs and Commands to Army Futures Command, and while 
the functions described above transfer to Army Futures Command, 
currently the personnel positions remain at Ft. Huachuca. The Army 
established the Futures Command Headquarters from within existing 
personnel structure, offering a no net growth solution from the Army 
Management Headquarters Account (AMHA) to achieve synergy among concept 
development, modernization, and acquisition initiatives.
    Ms. McSally. Under Secretary McCarthy, there have been press 
reports which quote you as saying that the Army plans to restructure or 
terminate a number of acquisition programs and research and development 
programs in the next budget submission. Can you explain the process the 
Army is using to determine which programs to terminate and restructure? 
Can you also address how the future requirements for Army systems not 
covered by the six cross functional teams are being addressed by the 
R&D community--for example, will there be funds for future intelligence 
systems or do you anticipate some sort of allocation of cuts?
    Secretary McCarthy. The Secretary and Chief of Staff of the Army 
personally led a program-by-program review of all Research and 
Development, and Procurement efforts. Guided by the National Defense 
Strategy and the Army Vision, they prioritized funding for the Army's 
modernization priorities, to include those efforts under the purview of 
the Cross Functional Teams, while assessing manageable risk across all 
other battlefield functions. In answer to your question concerning 
future intelligence systems, some intelligence-related investments fall 
within the Network Cross Functional Team and enable lethality across 
all domains. The development of survivable sensors to improve long 
range and precision target acquisition, and advanced analytics to 
expedite threat analysis, is needed to improve the lethality and 
survivability of Army formations in contested environments. 
Additionally, the Assured Positioning, Navigation, and Timing CFT 
efforts are focused on providing commanders with critical Positioning, 
Navigation, and Timing (PNT) capability to ensure mission command and 
electronic warfare situational awareness, in a PNT contested 
environment, for accurate and timely decision making. Proposed changes 
to investments were not simply allocated, but were the result of close 
scrutiny by the Army's most senior leaders. This review is ongoing 
within the Department of Defense and final decisions will be reflected 
in the Fiscal Year 2020 President's Budget Request.
    Ms. McSally. General Murray, I understand that AFC will be focusing 
funding on six priorities. How is the Army planning to ensure that 
systems that are not assigned a cross functional team are developed and 
fielded? Will Futures Command have a role in ``everything else'' and, 
if so, what is that role? (These items include everything from 
uniforms, parachutes, to the intelligence systems that allow the Army 
to provide warfighters with timely and useful intelligence.)
    General Murray. The Army will ensure that systems that are required 
(e.g., intelligence systems that allow the Army to provide warfighters 
with timely and useful intelligence) but are not assigned a cross 
functional team are developed and fielded by several means. The first 
is by utilizing the current governance, processes (e.g., Joint 
Capability Integration Development System-JCIDS) and organizations 
within the Future Force Modernization Enterprise (FFME). The second is 
through the AFC Fusion & Integration Center (FIC), which will have 
empowered representation from across the FFME to ensure that all 
required systems are receiving funding needed to develop and field 
those systems. AFC's role in this process will be to develop the 
concept, define the requirements, execute research & development, and 
identify solutions that our partners in the acquisition community will 
field for the Army.
    Ms. McSally. General Murray, as you know, TRADOC's Centers of 
Excellence perform much of the intellectual work on the doctrine, 
equipment, and skills needed for the future. It is not clear what 
changes, if any, the establishment of AFC will make to Centers of 
Excellence, such as the Intelligence Center of Excellence (USAICoE). 
Can you explain anticipated changes to the missions and structures of 
TRADOC Centers of Excellence resulting from the establishment of 
Futures Command? I am also concerned about the command and control 
relationships between Futures Command and the Training and Doctrine 
Commands Centers of Excellence. What are the Army's proposed changes to 
the TRADOC Centers of Excellence, including USAICoE? What command 
relationship will they retain with the Centers' commanding generals? 
What will be the command relationship between Centers of Excellence 
commanders and their elements, and organizations that shift to Futures 
Command?
    General Murray. The AFC principle of Unity of Effort focuses on 
leveraging efficiencies across disparate, but complementary elements of 
the Army Future Force Modernization Enterprise. This includes 
identifying and accounting for synergies between both AFC sub-elements 
and partners such as TRADOC. TRADOC's primary mission is to recruit, 
train and educate the fielded force, while AFC's mission is dedicated 
to the future force. The Capability Development Integration 
Directorates within the Centers of Excellence, to include the 
Intelligence Center of Excellence (USAICoE), will be assigned to Army 
Futures Command, while maintaining a general support relationship with 
TRADOC. The remaining components of the Centers of Excellence will 
remain the same and remain assigned to TRADOC.

                                  [all]
</pre></body></html>
